                                      UNITED STATES OF AMERICA
                           FEDERAL LABOR RELATIONS AUTHORITY
                             OFFICE OF THE INSPECTOR GENERAL
                                        WASHINGTON, D.C. 20424-0001




SUBJECT: Federal Labor Relations Authority (FLRA) Inspector General Internal Review
of the Federal Services Impasses Panel (FSIP)

METHODOLOGY:

This Inspector General Internal Review was conducted in accordance with the Inspector
General Act of 1978, as amended and the 2008 Inspector General Reform Act, and is in
compliance with the Inspector General Counsel of Integrity and Efficiency requirements and
the FLRA Inspector General’s related policy.

This Internal Review focused on mission and administrative issues in the FSIP Component
which support the FLRA’s mission and should be addressed to eliminate any risk
assessments or negative aspects of the FLRA. This Inspector General Internal Review
also pertained to positive aspects and issues that have improved the FLRA over the past
year. FLRA Programs are reviewed independently and objectively by the FLRA Inspector
General

REFERENCES:

The Inspector General Reform Act of 2008
The Inspector General Act of 1978, as amended
The 1998 FLRA Inspector General Internal Review of FSIP
The Federal Service Labor Management Statute
The Foreign Service Act of 1980
The Federal Labor Relations Authority 5 CFR, Chapter XIV
5 U.S.C. 7199(1)

BACKGROUND:

The Federal Services Impasses Panel (FSIP) handles impasses between Federal agencies
and unions that represent Federal employees. These impasses arise from negotiations
related to conditions of employment under the Federal Service Labor Management
Relations Statute and the Federal Employees Flexible and Compressed Work Schedule
Act. Seven Presidential appointed employees serve on the Panel in a part-time basis. One
of them serves as the Chairman of FSIP. Although in the past there had been 4 Attorney
Advisors, currently there is only one in addition to a detailed Labor Relations Specialist.
Right now there is no Office Manager or Secretary in the staff. During the prior
administration, a Special Assistant (Schedule C) was hired to assist the Chairman with the
FSIP component. In addition, there is a Senior Executive Director in the FSIP Component.
Federal agency and union parties conduct bargaining with Panel Members following
mediation assistance. If the bargaining is unsuccessful, the Panel has the authority to
recommend procedures and actions to resolve the impasse. Under the Foreign Service Act
of 1980, the Panel also supports the Foreign Service Impasse Dispute Panel (FSIDP) to
resolve impasses. FSIP impasse decisions can be purchased from the Government
Printing Office, and are also available on the FLRA website.

On May 1, 1998, the FLRA Inspector General reviewed FLRA FSIP to assess its mission
effectiveness, procedural efficiencies, management effectiveness and customer service.
This was an extensive review which included interviews with the FSIP staff and
questionnaires sent to the Panel Members, as well as the FSIP staff. It was the conclusion
of the Inspector General that overall the FSIP operation was managed well and addressed
its mission in an efficient and effective manner. Nothing indicated risk assessments or
fraud, waste, abuse or mismanagement. All Inspector General administrative findings and
recommendations were immediately addressed by FSIP management.

Questions for the Chairman, Special Assistant to the Chairman and Panel Members were
requested by the FSIP Chairman to be sent by mail or e-mail. This was done January 29,
2009. No response was provided by the Panel or Special Assistant prior to their release
from the FLRA on March 6, 2009. The Inspector General contacted the Special Assistant
before she left and requested that she provide the questionnaire information to the
Inspector General before she left because it represented her, as well as the Chairman’s
response. She never provided it.

FACTS:

On February 24, 2009, the FLRA Inspector General began an internal Review of FSIP
based on the requirements of the new administration. This Internal Review affirmed that
FSIP is addressing its mission, has a majority of effective controls and has no major
operational deficiencies other then there is only one Attorney Advisor and currently, there is
no Office Manager or secretary employed (although a General Counsel Office Manager
assists them until someone is hired).

The past administration Chairman of FSIP was Becky Dunlop-Norton who was also the
Chairman of the FSIDP. Her Special Assistant was Victoria Dutcher and the Executive
Director of the FSIP Impasse Panel is Joe Schimansky. The 7 Panel members were
geographically located in different U.S. locations and their appointments were recently
terminated on March 6, 2009. The Special Assistant was terminated on March 9, 2009.
The Executive Director indicated that the new Chairman and Panel would be appointed by
the President in the future, hopefully soon.

FSIP was initially established in 1969 by Executive Order 11491 and became an entity
within the FLRA in 1979 as a result of the FLRA statute. The FLRA FSIP, pursuant to 5
U.S.C 7119(1), has the responsibility to resolve negotiation impasses between Federal
agencies and union employees who are unable to reach an agreement with each other.

                                              2
Either Federal party or the parties jointly may request the FSIP Impasses Panel to address
the matter by filing a request with FLRA FSIP in writing.

The FSIP Impasses Panel facilitates voluntary resolutions by the parties but if they cannot
reach a resolution, the FSIP Impasses Panel may take a final action and issue a decision.
During the past administration, when the Panel Members met to conduct impasse panel
meetings, the Senior Executive, Chief Legal Advisor and detailed CADRO Specialist
conducted the investigations. While both parties are bound by the FSIP Impasse Panel,
the Federal agency heads do have a sovereign right to review and reject the FSIP
Impasses Panel’s decision on the basis of illegality.

An impasse is defined as a point in the negotiation of conditions of employment at which
time the parties are not able to reach agreement not withstanding efforts by direct
negotiation and by the use of mediation or other voluntary arrangements for settlement.
The FSIP Impasse Panel asserts jurisdiction only if voluntary efforts have been exhausted
and neither of the parties have raised a bona-fide jurisdictional issue. The Panel does not
resolve bargaining obligation disputes, negotiability disputes, or questions regarding
representation or grievances.

The FSIP Impasse Panel consists of at least 7 part-time Presidential appointees one of
whom is the Chairman. These FSIP Impasse Panel members can be also be removed at
the pleasure of the President (President Regan was the first to do so although he did retain
several.) None of the past administration Panel members had experience in Federal sector
impasse resolution when they were hired but did learn how to do so during the past
administration by working with the Executive Director. FSIP also contained a Special
Assistant appointed by the former Chairman of FSIP who was hired at the beginning of the
past administration in 2002. This individual had no impasses case knowledge or
experience but also learned this primarily through the Executive Director whose authority
was diminished. At the beginning of the last administration, FSIP had 7 employees
including an Office Manager and Supervisory General Attorney. Currently there is only one
Chief Legal Advisor, a detailed CADRO Specialist (detailed in 2007) and no Office
Manager. Currently, the Washington Regional Office Administrative employee is handling
much of FSIP's administrative requirements. This FSIP Office Manager position was
diminished from a GS-9 to a GS-8 during the past administration.

Requests to the FSIP Panel must contain the identification of the subject parties, the
amount and length (dates) of their negotiations and the specific request for the approval of
a binding arbitrator if the parties jointly agree to use this procedure. The latter type if
request should include the type of arbitration, the method of selecting the arbitrator and
manager of the payment for the proceedings.

Once an impasse request is submitted, the FSIP Executive Director, Chief Legal Advisor or
CADRO Specialist investigates the request recommends the that jurisdiction be declined
they find that no impasse actually exists or that there is no cause for asserting jurisdiction.
If jurisdiction is asserted, FSIP assist the parties in resolving the impasses through

                                              3
whatever methods it considers appropriate. Normally, the approval of a joint request for
binding arbitration is conducted by the FSIP Panel within 5 days of the completion of the
investigation. The FSIP has a variety of procedures at its disposal if it asserts jurisdiction
over an impasse. The procedure that is selected is designed to maximize the possibility of
a voluntary settlement. If a settlement is not reached, the Panel imposes terms to resolve
the impasse after full consideration of the merits of the parties’ proposals.

During the past administration, the authority of the FSIP Executive Director, Chief Legal
Advisor and previous attorneys was reduced significantly. The authority was totally given to
the political appointees which included the FSIP Chairman, Panel Members, and to the
Special Assistant. The current FSIP Executive Director does conduct Impasse Panel
training for Federal agency employees and Federal union employees.

The FSIP Panel facilitates a resolution by the parties but if they cannot reach a resolution,
the Panel decision but may take a final action and issue a decision. Both parties are bound
by the FSIP Panel’s, the Federal Agency Heads do have the sovereign right to review and
reject this decision if they believe it violates a Federal. law, rule, or regulation.

Since 1993, there has been less FSIP case filing because most Federal Agencies
developed better relationships with their Unions. FSIP case filing also did diminish over the
last administration but are likely to increase again under the current administration. From
2006 to 2008, the amounts of impasses handled by FSIP have diminished, especially in
2008. The reduced staff was able to address the reduced cases. Already, during FY 2009,
FSIP has closed 5 impasses and is currently investigating 12 requests for assistance.

Because the past administration’s Chairman had a Special Assistant, the FSIP Executive
Director had not been in charge of FSIP and basically provided required information to the
Special Assistant. During the past administration, the FSIP Executive Director still handled
95 percent of the FSIP Executive Director’s work by overseeing the FSIP staff, making sure
there were no problems handling the FSIP impasses and handling cases and issuing
recommendations to the Panel regarding impasses assigned to him for investigation (which
were generally very extensive cases).

Under the last administration, the FSIP staff maintained a support and advisory role rather
then a decision making role. The FSIP Staff does have the authority to conduct arbitrations
but did not have the authority to handle the investigation of cases and recommend
decisions to the FSIP Panel during the last administration. If settlements are not made by
the parties, the impasse cases go to the FSIP Panel.

Previous to the prior administration, the FSIP staff members could conduct informal
conferences but could not do it from 2001 to the time the Chairman of the FSIP Panel
departed. There have been more Panel meetings by telephone than previous to the past
administration. During the past administration the Chairman ran a very centralized
operation, there virtually had been no disagreements to the Chairman’s decisions by the
Panel. The Panel meetings with the FSIP Chairman had been efficient during this past

                                              4
administration.

During the past administration, the capabilities of Federal Unions were reduced and
impasse filings with the FLRA FSIP were also reduced significantly. The budgets for the
part time FLRA Panel members were also reduced during the past administration. The
former FSIP Chairman spent very little time over the last administration at the FLRA but did
handle the impasse decisions properly.

During the past administration, the former Chairman, FLRA and current Executive Director
consistently interacted with the former FSIP Special Assistant to the Chairman only and not
to the other staff. The FSIP Special Assistant did interact and responded professionally to
the FSIP Executive Director who handled the FSIP staff. In spite of the fact that during the
last administration, a few impasse cases were not accepted and impasses reduced, they
were still handled properly. Prior to the past administration, in addition to the 7 Panel
members, there were 6 professional employees, currently there are only 3 employees, the
Executive Director, the Chief Legal Advisor, and detailed CADRO Specialist.

During the past administration, the excessive professional authority of the FSIP Executive
Director was diminished. The Chief Legal Advisor’s face-to-face contact with parties was
removed with the exception of those who filed cases in the D.C. area with whom the Chief
Legal Adviser maintained contact. Arbitration and travel were both removed from the Chief
Legal Advisors job which she had prior to the last administration. Although the FSIP
Executive Director, Chief Legal Advisor, and detailed CADRO Specialist were told what the
FSIP Panel impasse decisions were made, little guidance was provided to them regarding
how or why the decision was made.

Approximately 40-50 percent of the cases filed are withdrawn before they go to the Panel
for a formal decision. The cases that go to the FSIP Panel for a final decision are usually
closed within 50-60 days of the record’s closing in a case. When the FSIP Panel handles
impasse cases and they are declined by the Panel, it usually takes about 90 days to decline
such jurisdiction. When the FSIP Panel handles the impasse case and it is settled, it
generally involves 120 days to issue the case disposition. When the impasse case is
handled and settled by the Panel, it generally takes 150 days to do so. Under the former
FSIP Chairman’s leadership, it took longer during the past administration to issue Panel
decisions to the parties then under the earlier administrations.

Although there have been more “face-to-face” meetings in Washington D.C. with parties,
meetings outside the D.C. area have been handled by telephone during the past
administration. The past administration‘s Impasse Panel initially did have “face- to- face”
meetings to consider impasses until they got to know each other and could interact by
telephone. Such meetings did cause more travel expenses. Since they were able to know
how to interact with each other and fewer cases had been filed, there have been more
teleconference meetings with FSIP Panel Members and the FSIP travel budget was
reduced during the last administration. So far during 2009, there have been two
teleconference meetings by the Panel. The FSIP Executive Director stated that

                                             5
teleconferences in the early stages of an impasse case were okay but during later states of
a case, “face-to-face” interaction is preferable.

Although the travel budget of $25,000.00 is currently sufficient, it was not accurate for travel
during the past administration even though the Chairman, FSIP was conservative and
concerned about Federal budget spending and the Panel’s travel expense budget was
reduced. However, during the last administration when FSIP Chairman and/or Panel
Members needed additional travel budgets, the former Chairman of FLRA provided needed
travel budgets to the Chairman, FSIP. The FSIP Chairman of the past administration also
took less payment than previous FSIP Chairmen but also handled fewer cases.

FSIP Management was not involved in creating the FLRA’s Strategic Plan and did not
create a specific one for FSIP. FSIP does have a list of instructions for new FSIP
employees which is not on the internet. This Inspector General review indicated that FSIP
does not currently have any administrative problems. However, equipment and furniture
which was not being used by FSIP because of the reduced staff was being taken for other
employees who needed them.

The detailed FLRA Collaborative Alternative Dispute Resolution Office (CADRO) Specialist,
was detailed to FSIP in 2007 (initially for 30 days and then continually for 120 days from the
FLRA CADRO for which he was initially hired in 2001. The CADRO Specialist is still
performing his previous work, as well as conducting investigations and doing work for the
FSIP Panel Members. If he has a CADRO case to handle, he notifies the FSIP Executive
Director and works on it but they have been reduced significantly during the past
administration. The detailed CADRO Specialist consistently interacts with the Executive
Director and the Special Assistant. He attends meetings with the FSIP Chairman and
interacts with the FSIP Panel Members professionally after jurisdiction is asserted over
cases. The CADRO Specialist has no problems in FSIP with administrative programs.
When the FLRA updates the FSIP staff during the new administration, the CADRO
Specialist would like to go back to his initial job with CADRO if his CADRO program is
recreated.

CONCLUSION:

FSIP is conducting proper professional work without any significant problems except the
staff and budget has been significantly reduced. The fact that the former FSIP Chairman,
Special Assistant and Panel Members did not respond to the FLRA Inspector General and
were removed on March 6, 2008 eliminated the Inspector General’s review of FSIP
previous political appointees.

When the new Panel Chairman and part-time Panel Members are appointed by the
President and affirmed by Congress, a year later, the FLRA Inspector General will review
these new employees to gain management information.



                                               6
FINDINGS AND RECOMMENDATIONS:

Finding 1:

The authority of the FSIP Executive Director and Chief Legal Advisor had been diminished
during the past administration even though both were extensively professional and
experienced. The authority of the Panel to issue the decisions was also taken away.

Recommendation 1:

During the next administration, FSIP management should reinstate the authority of the
FSIP Executive Director, Chief Legal Advisor, and Panel Members so that FSIP Panel
decisions are handled properly and quickly.

Finding 2:

During the past administration, the FSIP staff was diminished including the office manager
(office manager position is being processed now) and additional legal advisors.

Recommendation 2:

If FSIP cases increase during this administration, FLRA management should consider
increasing the staff to address the FSIP impasses in the proper time.




Date Issued: March 17, 2009




                                            7
